BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in Christopher
MichaelMarinoand Valerie Margaret Marino v. Ocwen
Loan Servicing, LLC, was sent via Next Day Service to
the U.S. Supreme Court, and via Next Day Service and
e-mail service to the following parties listed below, this
24th day of September, 2020:
Jonathan D. Fink
Wright, Finlay & Zak, LLP
4665 MacArthur Court, Suite 200
Newport Beach, CA 92660
(949) 4 77-5050
jfink@wrightlegal.net
Counsel for Respondent
Daniel L. Geyser
Counsel of Record
Alexander Dubose & Jefferson LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
(214) 396-0441
dgeyser@adjtlaw.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 24, 2020.

Donna J. Wolfi
(0
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~ ~ d-4--1
cf,h,-!J.

Notary Public
[seal]

~QR)

~

